V-

/T:

W'

!
■u

rJ- QJ

iuj.:crn& L-oiiri, U.S.'

I

I

No.

KCX ^ n
I

cr'-'CEO-'^c;i?.g;< j

IN THE
SUPREME COURT OF THE UNITED STATES
8TH JUDICIAL CIRCUIT

DAION J. WILLIAMS # 76527

— PETITIONER

(Your Name)
vs.
WILHEM

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE NEBRASKA SUPREME COURT AND COURT OF APPEALS

__ ____

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DAION J. WILLIAMS- # 76527

(Your Name)
i

P.O. BOX 22500

(Address)
LINCOLN, NE 68542-2500

(City, State, Zip Code)

402-471-3161
(Phone Number)

!1
~T

QUESTION(S) PRESENTED
1. DID THE DISTRICT COURT JUDGE ANDREW R. JACOBSEN ERROR, In denying the Petitioner's
Petition For Writ Of Habeas Corpus pursuant to Neb. Rev. Stat. § 29-2801, when the
Petitioner did show cause of action for discharge pursuant to Neb. Rev. Stat. § 292801?
2. DID THE DISTRICT COURT JUDGE ANDREW R. JACOBSEN ERROR, In denying the Petitioner's
Petition For Writ Of Habeas Corpus without granting an Evidentiary Hearing pursuant
to Neb. Rev. Stat. § 29-2805?
3. DID THE DISTRICT COURT JUDGE ANDREW R. JACOBSEN ERROR, In denying the Petitioner's
Petition For Writ Of Habeas Corpus, when there was a Jurisdictional Error present
in the Petitioner's Petition?
4. DID THE COURT OF APPEALS FOR THE STATE OF NEBRASKA ERROR, In denying the Petitioner
relief pursuant to Neb. Rev. Stat. § 29-2801?
5. DID THE COURT OF APPEALS FOR THE STATE OF NEBRASKA ERROR, In sustaining the Appellee's
Motion For Summary Affirmance, even-though the Court Of Appeals For The State Of
Nebraska cannot determine the Constitutionality of a Statute?
6. DID THE NEBRASKA SUPREME COURT ERROR, In denying the Petitioner's Petition For
Further Review in this matter without an Appealable answer?
7. DID THE NEBRASKA SUPREME COURT ERROR, by giving an Unconstitutional and Erroneous
Order in this matter, that failed to state a reason for that denial?
8. IS THE NEB. REF. STAT. § 29-2801 UNCONSTITUTIONAL, When the Petitioner was denied
the rights of the Writ, even-though the Petitioner raised a Collateral Attack?
9. IS THE NEB. REV. STAT. § 29-2801

UNCONSTITUTIONAL, When the Statutory language is

" ambiguous " because it is susceptible to more than one reasonable interpretation?

10. WAS THE ORDER'S IN THE LOWER COURT'S UNCONSTITUTIONAL, when the decision’s in
this matter to deny the Petitioner relief is contrary to clearly established federal
law under the habeas statute?

N

LIST OF PARTIES

|. J All parties appear in the caption of the ease on the cover page.
[XJ All parties do not appear in the caption of the case on-the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject, of this
petition is as follows:
THE DISTRICT COURT OF LANCASTER COUNTY, NEBRASKA
575 S. 10TH STREET
LINCOLN, NEBRASKA 68508-2810

THE COURT OF APPEALS FOR THE STATE OF NEBRASKA
2413 STATE CAPITOL
P.O. BOX 98910
LINCOLN, NEBRASKA 68509-8910

THE NEBRASKA SUPREME COURT
2413 STATE CAPITOL
P.O. BOX 98910
LINCOLN, NEBRASKA 68509-8910

TABLE OF CONTENTS

OPINIONS BELOW

1-2

JURISDICTION

.3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

A

STATEMENT OF THE CASE

5-9

REASONS FOR GRANTING THE WRIT

10-11

CONCLUSION

.12

INDEX TO APPENDICES

APPENDIX A decision of the Nebraska supreme court denying
REVIEW

PETITION FOR FURTHER

APPENDIX B decision of the Nebraska court of appeals SUSTAINING APPELLEE'S MOTION
FOR SUMMARY AFFIRMANCE

APPENDIX C decision" of the district COURT OF LANCASTER COUNTY, NEBRASKA DENYING
WRIT OF HABEAS CORPUS

APPENDIX D
APPENDIX E
i

APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

PAGE #

IN RE INTEREST OF BRANDY M., 1996, 250 NEB. 510, 550 N.W. 2D 17

7

KENT V. U.S., 383 U.S. 541 (1966)

8

STATUTES AND RULES
NEB. REV. STAT. § 29-2801

4,6,9,10

11,12
NEB. REV. STAT. § 43-246.01(3) (REISSUE 2016)

4,6

NEB. REV. STAT. § 24-1106(1)

4,6

NEB. REV. STAT. § 43-247(2)

4,6

NEB. REV. STAT. § 43-27^...

4,6

NEB. REV. STAT. § 43-276

4,6

NEB. REV. STAT. § 43-247

4,6

NEB. REV. STAT. § 43-271

4,7

NEB. REV. STAT. § 43 278

4,7

OTHER
NEB. REV. STAT. § 29-2805
QUESTION(S) PRESENTED

4,

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue.to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ J reported at
|. J has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ J has been designated for publication but is not yet reported; or,
L J is unpublished.
[xi For eases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[Xi is unpublished.
NEBRASKA COURT OF APPEALS
The opinion of the_______________
appears at Appendix B>__ to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
1.

court

The opinion of the DISTRICT COURT OF LANCASTER COUNTY, NEBRASKA
appears at Appendix C to the petition and is
]X] is unpublished.

2.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was __---------------------- ------[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date:------------------order denying rehearing appears at Appendix
I 1 An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) bn
to and including---------in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[XJ For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
------[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
99/14/2020
appears at Appendix ——
[ j An extension of time to file the petition for a writ of certiorari was granted
.(date)in
(date) on
to and including-----Application No. —_A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

3.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S.C.A. AMENDMENT V; AMENDMENT IV; AMENDMENT VIII & AMENDMENT XIV

NEB. REV. STAT. § 29-2801
NEB. REV. STAT. § 43-246.01 (3) (REISSUE 2016)
NEB. REV. STAT. § 24-1106 (1)
NEB. REV. STAT. § 43-247 (2)
NEB. REV. STAT. § 43-277
NEB. REV. STAT. § 43-276
NEB. REV. STAT. § 43-271
NEB. REV. STAT. § 43-278
NEB. REV. STAT. § 29-2805

/

4.

STATEMENT OF THE CASE
On

March 5, 2020 the District Court Judge Andrew R. Jacobsen, entereddan Order

denying the Petitioner's Petition For Writ Of Habeas Corpus. The Petitioner timely
filed a Notice Of Appeal for that denial. The Petitioner than filed his Brief #
A-20-0227 with the Court Of Appeals For The State Of Nebraska. On July 21, 2020
the Court Of Appeals, entered an Order to grant the Appellee's Motion For Summary
Affirmance. On August 24, 2020 the Petitioner timely filed a Petition For Further
Review with the Nebraska Supreme Court. On September 14, 2020 the Nebraska Supreme
Court entered an Order to deny the Petitioner's Petition For Further Review.

The Nebraska Supreme Court order that denied the Petitioner's Petition
For Further Review was Unconstitutional and Erroneous because the Nebraska

Supreme

Court failed to give the Petitioner an appealable order. The order that was given
stated " Petition of Appellant for further review is denied " and thus failed to
give a stated reason as to why that Petition For Further Review was denied and
therefore faileddto giv4 an appealable answer as to why that petition was denied.
The Petitioner has a Constitutional Right to appeal a final order and this order
given by the Nebraska Supreme Court failed to state a reason, as to why the Petition
For Further Review was denied and because of that failure to state a reason, this
order is Unconstitutional and Erroneouss

The Court Of Appeals For The State Of Nebraska cannot determine
the Constitutionality of a statue, and thus the Order that was given on July. 27,
2020 is Unconstitutional and Erroneous because the Court Of Appeals did make that
decision to deny relief and to sustain the Appellee's Motion For Summary Affirmance

5.

,

based upon the interpretation of the Neb. Rev. Stat. § 29-2801 and Neb. Rev. Stat.
§ 43-246.01(3) (Reissue 2016) and thus the interpretation of a statute can only
be done by the Nebraska Supreme Court and not the Court Of Appeals For The State
Of Nebraska, as seen in Neb. Rev. Stat. § 24-1106(1), when there is an issue of
Constitutionality of a statue. Both Neb. Rev. Stat. '§ 29-2801 and Neb. Rev. Stat. §
43-246.01(3) is ambigous and is in pari materia with related statutes, as seen in
Neb. Rev. Stat. § 43-247 (2) " Any juvenile who has committed an act which constitute
a felony under the laws of this state; " and this statute also states that " The
juvenile court shall have concurrent original jurisdiction with the district court
as to any juvenile defined in subdivision (2) of this section. Neb. Rev. Stat. §
43-277 states that a juvenile defendant has a right to a adjudication hearing as
soon as possible. The interpretation of a juvenile’s jurisdiction for a criminal
case pursuant to a statue cannot be made by the Court Of Appeals For The State Of
Nebraska and thus to make an interpretation of this statute in this matter was
Unconstitutional and Erroneous.

\
The District Court Judge Andrew R. Jacobsen also gave an Unconstitutional
and Erroneous order because there was a Jurisdictional Error present in the Petitioner's Petition For Writ Of Habeas Corpus. Nebraska statutes is clear when it comes to
the treatment of juvenile's, as seen in the Neb. Rev. Stat. § 43-276 holds that "
all cases against a juvenile shall always begin in the Juvenile court and must
literally be transferred by the juvenile court to adult court. ", even under Neb.
Rev. Stat. § 43-247 it states that a " juvenile offender is subject to the exclusive
jurisdiction of the juvenile,court unless that court after a ( full investigation )
(Emphasis Added) should waive jurisdiction over him and remit him for trial to the
District Court " and pursuant to Neb. Rev. Stat. § 29-2801, a person is allowed to
collateral attack a " Void And Null " Sentence, Judgment, Conviction and Commitment
6.

wE£n there is an lack of Jurisdiction over the Offense, Personal Jurisdiction over
the Petitioner and Jurisdiction to impose a sentence. The Petitioner did present the
issue of a Jurisdictional Error in this matter.

The.Petitioner in this matter is entitled to absolute discharge because
the Petitioner was never given an adjudication hearing within the required time
period and thus there was no jurisdiction transfered from,the Juvenile Court to
the District Court in this matter and therefore the Petitioner's Sentence, Judgment,
Conviction and Commitment is " Void And Null " in this matter. There is a stytutory
right to juveniles to have an adjudication hearing for all juveniles alleged to have
committed misdemeanor, felony, or certain traffic offenses or to be disobedient or
wayward, as seen in Neb. Rev. Stat. §§ ^0-247 (1,2),(3)(b),(4) , 43-271, 43-278 In
re interest of Brandy M., 1996, 250 Neb. 510, 550 N.W. 2d 17.

The Petitioner was prejudiced by the failure of not having an adjudication
\

hearing because the Petitioner could have been charged as an juvenile and not as an
adult and thus the Petitioner's right to " Due Process " was also violated in this
matter. The Petitioner never waived his rights to an adjudication hearing, nor did the
Petitioner waive his right to have Counsel for an adjudication hearing, as seen in
Exhibit #7.

The Petitioner's Sixth Amendment right to have " Competent " counsel
at a " Critical " stage in a " Criminal " proceeding was not upheld in this matter
because Counsel for a juvenile offender must (Emphasis Added) file a motion in
Juvenile Court requesting a hearing on the question of waiver, and access to the
Juvenile's socileU. file, and there is nothing in the record that show that ieas done
these things and thus did violate a critical statutory right of a juvenile offender.

7.

As seen in Kent V. U.S., 383 U.S. 541 (1966) is directly on point with this
issue, in Kent, the petitioner was arrested at the age of 16 in connection with
charges of housebreaking, robbery and rape. As a juvenile, he was subject to the
exclusive jurisdiction of the District Court of Columbia Juvenile Court unless that
court, after " Full Investigation ", should waive jurisdiction over him and remit
him for trial to the United States District Court for 'the District of Columbia.
Petitioner's Counsel filed a motion in the Juvenile Court for a hearing on the
question of waiver, and for access to the Juvenile Court's Social File which had
accumulated on petitioner during his probation for a prior offense. The Juvenile
Court did not rule on these motions, but entered an order waiving jurisdiction, with
the recitation that this was done after the required " Full Investigation ".

The petitioner was indicted in the District Court, he than moved to dismiss
the indictment on the ground that the Juvenile Court's waiver is invalid, although
these two case's ( Williams and Kent ) are similar they differ as well, mainly because
Kent was allowed the benefits of the JUVENILE PROCESS while the Petitioner was denied .
that right of the Juvenile Process. The Petitioner was never given that " Full
Investigation " nor was there a waiver order in this matter, and those two things are
very critical in the Juvenile Process that must be done to bound over a Juvenile
to the District Court as an adult and to deny or omit any and all " Juvenile Court "
proceedings can never be considered as a mere irregularity.

The record in this matter does prove that the District Court's reasoning
was untenable and unfair to the Petitioner and the Petitioner was denied his rights
as an Juvenile Offender. The order to bound jurisdiction over to the District Court
on January 23, 2012 by the Honorable Judge Susan Bazis, was an Unconstitutional and
Erroneous order because there was never an Adjudication Hearing in this matter and
because of an absent of a waiver order and " Full Investigation ", there is no
8.

valid order to bound jurisdiction in this matter, and thus the Petitioner is entitled
to collateral attack his " Void And Null " Sentence, Judgment, Conviction and
Commitment pursuant to Neb. Rev. Stat. § 29-2801 because the sentence imposed in this
matter is absolutely void because there was no Jurisdiction over the Offense, there
was no Personal Jurisdiction over the Petitioner in the District Court and thus the
District Court did exceed it's Unlawful Authority in•imposing a sentence in this matter.

9.

SEASONS FOR GRANTING THE PETITION

Neb. Rev. Stat. § 29-2801; § 43-246.01(3) (Reissue 2016); § 24-1106(1); § 43-247(2)
and § 43-277 is being drawn into question by the Petitioner on the ground of them
being repugant to the Constitution, treaties, or laws*of the United States, and the
Petitioner's right, entitlement, and privilege for relief pursuant to Neb. Rev. Stat.
§ 29-2801 is being denied by the State Of Nebraska. On Habeas Corpus, the inquiry is
confined to jurisdictional matters, see Keller V. Davis, 1903, 69 Neb. 494, 95 N.W.
1028.

The decision given in Appendices A, to deny the Petitioner's request for
Further Review, was Unconstitutional and Erroneous because the Nebraska Supreme Court
failed to give the Petitioner an Appealable answer and the statement that was given
failed to state any reason as to why that " Petition For Further Review " was denied,
and under both State and Federal Constitutional Right to

Due Process

, the Petitioner

have a right to an Appealable order in this matter.

The decision given in Appendices B, to deny the Petitioner's request for
relief pursuant to Neb. Rev. Stat. § 29-2801 and to sustain the Appellee's Motion For
Summary Affirmance was Unconstitutional and Erroneous because the Court Of Appeals
for the State Of Nebraska cannot determine the Constitutionality of a statute, fhe
Order to deny relief in this matter was based upon the Court Of Appeals own interpre­
tation of said statutes and as seen in Neb. Rev. Stat. § 24-1106(1) an issue that
deals with the Constitutionality of a statute must be made by the Nebraska Supreme
Court and not by the Nebraska Court Of Appeals and therefore the Order to grant the
Appellee's Motion For Summary Affirmance in this matter, was also Unconstitutional
and Erroneous. The Petitioner's Stgte and Federal Constitutional Right's to " Due
Process " was also violated by the Erroneous Order.
10.

The decision given in Appendices C, to deny the Petitioner's Petition For
Writ Of Habeas Corpus in this matter was Unconstitutional and Erroneous because the
Petitioner did present a Jurisdictional Error that does show and prove that there
was no Valid Order that Bounded the Petitioner over from Juvenile Court to the District
Court to be ehdiEgSd as an adult in this matter and thus there was no Jurisdictional
over the Offense, no Personal Jurisdiction over the Petitioner and therefore there is
no Jurisdiction for the District Court to impose a sentence, in this matter. There is
no Legal Authority for the District Court to impose any sentence without a Valid Order
that Bhunded the Petitioner over. The Petitioner is being denied his LIBERTY by means
of a " Void And Null " Sentence, Judgment, Conviction and Commitment and pursuant to
Neb. Rev. Stat. § 29-2801, the Petitioner is allowed th attack this " Void And Null "
Sentence, Judgment, Conviction and Commitment. The Order to deny the Petitioner's
Petition For Writ Of Habeas Corpus in this matter was Unconstitutional and-Erroneous.
The Petitioner's State and Federal Constitutional Right's to " Due Process " was also
violated in this matter.

11.

A Writ Of Habeas Corpus is a remedy which is constitutionally available
in a proceeding to challenge and test the legality of a person's detention, imprisonment,
or custodial deprivation of liberty. A Void and Invalid Juvenile Jurisdiction waiver
is allowed to be Collateral Attacked pursuant to Neb. Rev. Stat. § 29-2801. The
Petitioner is seeking that this Court overturn the decision's of the. District Court Of
Lancaster County, Nebraska and the Nebraska Supreme Court And Court Of Appeals and
to grant the Petitioner his requested relief for this ma'tter.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
8

&\0 r\

iA\l

Date:

NOTARY:

"l20Z'erPO -d*3 ’imuoQ "IN ae

MOVWI NIJJIH3'IN 3113NNV1

DATE:

6

^d
rJeJz

Ckf

M

W&'l

12.

PMsejaaM 10 awiS •

JL03-G

lejauap

